SEC.gov |  Space Management - Operations Center and Annex
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Space Management - Operations Center and Annex
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
SPACE MANAGEMENT - OPERATIONS CENTER and ANNEX
AUDIT REPORT NO. 249
February 12, 1997
SUMMARY
We conducted an audit of the Commission's space management to determine whether the Commission's space at the Operations Center and Annex building could be better utilized, thereby increasing leasing effectiveness or reducing costs.  The audit was performed between March and October 1996.
We initially found that the Commission had excess space at the Operations Center and Annex buildings.  The Office of Administrative and Personnel Management is taking actions to use space there more efficiently, in connection with a move of headquarters staff to the Operations Center and the termination of warehouse space in Southeast Washington, D.C.
We are recommending, in the short term, several steps to further improve space utilization.  In the long term, based on certain contingencies, the Commission may be able to vacate the Annex building, saving approximately $350,000 annually.
Staff in the Offices of the Executive Director and Administrative and Personnel Management commented on a prior draft of this report (see attached).  We have modified the report as appropriate to reflect the comments.
OBJECTIVE AND SCOPE
Our objective was to evaluate whether the Commission's space at the Operations Center and Annex building could be better utilized, thereby increasing leasing effectiveness or reducing costs.  Our analysis was based on conditions as of May 1996, except we adjusted it, where possible, to reflect the acquisition of additional space at the Operations Center in July 1996.  We also considered, as appropriate, storage use at headquarters and a leased warehouse facility in Southeast Washington, D.C.
During the audit, we interviewed Commission staff; performed analytical procedures; reviewed building floor plans, leases, and other documentation; and toured the buildings.  The audit was performed in accordance with generally accepted government auditing standards between March and October 1996.
BACKGROUND
In August 1991, the Commission signed a fifteen year lease with two five year options for the Operations Center in Alexandria, Virginia.  The lease provided for 81,313 net usable square feet (NUSF) of space, of which 60,587 was classified as office space, 18,574 as data center space, and 2,152 as other (e.g., warehouse) space.  In January 1994, the Commission acquired an additional 11,836 NUSF, and in July 1996, another 21,329 NUSF.  The cost of the lease for 1996 was $1,815,566.  The cost does not include utilities and guard costs.
In August 1993, the Commission signed a fifteen year lease for the Annex building.  The lease provided for 18,000 NUSF, of which 3,000 was classified as office space, and 15,000 as other space respectively.  The leasing cost for fiscal year 1996 was $219,717.  The cost does not include utilities and guard costs  of approximately $130,500.
AUDIT RESULTS
Our audit initially found that the Commission had excess space at the Operations Center and Annex building, for several reasons.  These included budget and staffing uncertainties, and the configuration of the Operations Center, which was not designed as a government building.
In July 1996, the Commission acquired additional space in the Operations Center.  It moved 99 staff from OAPM, the Comptroller's Office, and the Freedom of Information Act Office into this space and other Operations Center space in November 1996.
As part of that move, OAPM is improving space utilization in the Operations Center (e.g., by reducing the number of staff with private offices, and enhancing the use of conference rooms and the training areas).  A total of 17 staff from the Office of Information Technology have moved to a modular layout (formerly, many had private offices of approximately 150 square feet). Plans are underway to extend this effort throughout the Operations Center.
We have several additional short and long term recommendations to further improve the Commission's use of leased space, or reduce leasing costs.
Short Term Issues
Storage Areas
Based on our observations of the Commission's storage areas (including the Operations Center, Annex building, and headquarters), these areas could be used more efficiently, providing additional space.  The extra space could be used to offer headquarters staff additional parking, provide space if the Annex building were to be vacated, or reduce Commission use of private storage companies.  Our observations follow.
In the Annex building, certain filing units could be mechanized or made higher (thereby increasing their capacity without increasing square foot usage), and certain records could be possibly converted to electronic media.
Computer paper and forms in several storage areas are stored only one pallet high, and appear to exceed Commission needs.
Some storage areas contain a significant quantity of surplus office furniture or documents (policy manuals and forms).
Furniture and other items could be better organized.
Recommendation A
The Office of Administrative and Personnel Management should consider corrective actions to provide additional space, based on our observations.  These could include: installing mechanized filing units, increasing use of electronic media, storing items higher and in a better organized way, transferring surplus furniture to the General Services Administration, and reducing stocks of computer paper and forms.
Conference and Training Space
We analyzed the use, primarily during June 1996, of four conference rooms and a lounge area in the Operations Center.  We found that they were under-used.
Similarly, two large training rooms and smaller break-out rooms were under-used.  During the period from December 1995 through approximately the end of May 1996, the training rooms were only used approximately 27% of the available time.  A contractor was the main user of these rooms.  The break-out rooms were primarily used to store office furniture and training manuals.
One of the four conference rooms has since been converted to an office, and use of the other conference rooms, training rooms, and lounge might increase after the staff move in November.  According to OAPM, additional OAPM staff will be assigned office space in the training area as part of the November 1996 move.
Recommendation B
OAPM should consider using some conference rooms and the lounge area for other purposes, if additional space is needed.
Long Term Issues
Annex Building
The Commission spends approximately $350,000 annually to lease the Annex building (18,000 NUSF).  This amount consists of lease costs and security guard services.
Depending on the results of the contingencies discussed below, these costs could possibly be avoided, either through sub-letting the Annex building or negotiations with the landlord (who also is the Operations Center landlord).  Another advantage of vacating the Annex would be consolidation of staff at the Operations Center.
Based on guidance from the Office of Management and Budget, the Commission is considering whether to close its mainframe facilities at the Operations Center by 1998.  The mainframe space could then replace Annex building space.  This space occupies a substantial portion (approximately 16,600 NUSF) of the data center.
The Commission has issued a solicitation to replace its current EDGAR contract with BDM, which is expiring.  It is considering the extent to which EDGAR should be privatized.  BDM now occupies approximately 8,000 square feet at the Operations Center.  If the new contractor used its own facilities rather than Commission space, this space would be available to replace Annex space.
Finally, the Commission staff moving to the Operations Center in November could possibly return to headquarters after the headquarters building is renovated.  If they return, then the space they occupy at the Operations Center (which the Commission could vacate in October 1999 if it chose to) would be available.
According to the Director of the Commission's Space Renovation Program, additional uses of the space in the Annex Building are now underway.  Approximately 1500 square feet of storage space is being converted into an area to house contractors working on Commission projects.  Providing on site facilities rather than using contractor space will reduce expenditures on the Entity Filing Fee System (EFFS) program by approximately $138,417 annually.
Recommendation C
OAPM, in consultation with the Offices of Information Technology, the Executive Director, and the General Counsel, should consider whether to vacate the Annex Building (through a sub-lease or negotiations with the landlord), based on the results of the contingencies discussed above.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us